U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

June 30, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Oscar Daniel Rios Benitez v. United States of America,
S.Ct. No. 20-8257

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 4, 2021,
and placed on the docket on June 9, 2021. The government’s response is due on July 9, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including August 9, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-8257
BENITEZ, OSCAR DANIEL RIOS
USA

KEVIN JOEL PAGE
ASSISTANT FEDERAL PUBLIC DEFENDER
525 GRIFFIN STREET
SUITE 629
DALLAS, TX 75202
214-767-2746
JOEL_PAGE@FD.ORG

